<html>
<title> - SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED FOR AT THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED 
                    FOR AT THE DEPARTMENT OF DEFENSE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2012

                               __________

                           Serial No. 112-179

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-193 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2012...............................     1

                                WITNESS

Mr. John F. Sopko, Special Inspector General, Afghanistan 
  Reconstruction
    Written Statement............................................     7
    Oral Statement...............................................    10

                                APPENDIX

The Honorable John F. Tierney, Member of Congress from the State 
  of Massachusetts, Opening Statement............................    32

 
SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED 
                    FOR AT THE DEPARTMENT OF DEFENSE

                              ----------                              


                     Thursday, September 13, 2012,

                  House of Representatives,
      Committee on Oversight and Government Reform,
  Subcommittee on National Security, Homeland Defense, and 
                                        Foreign Operations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2247, Rayburn House Office Building, the Honorable Jason 
Chaffetz [chairman of the subcommittee], presiding.
    Present: Representatives Chaffetz, Labrador, Farenthold, 
Tierney and Lynch.
    Staff Present: Thomas A. Alexander, Majority Senior 
Counsel; Sharon Casey, Majority Senior Assistant Clerk; 
Mitchell S. Kominsky, Majority Counsel; Beverly Britton Fraser, 
Minority Counsel; Devon Hill, Minority Staff Assistant; Dave 
Rapallo, Minority Staff Director; Rory Sheehan, Minority New 
Media Press Secretary; Cecelia Thomas, Minority Counsel; and 
Carlos Uriarte, Minority Counsel.
    Mr. Chaffetz. The Committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee Mission Statement.
    We exist to secure two fundamental principles. First, 
Americans have the right to know that the money Washington 
takes from them is well spent. Second, Americans deserve an 
efficient, effective government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they are getting from the government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is the mission 
of the Oversight and Government Reform Committee.
    I want to welcome everyone to this hearing, the SIGAR 
Report: Document Destruction and Millions of Dollars 
Unaccounted for at the Department of Defense.
    Today's proceedings will continue the subcommittee's 
efforts to oversee the billions of taxpayer dollars spent in 
support of military and civilian operations in Afghanistan. On 
Monday, the Special Inspector General for Afghan Reconstruction 
released a report entitled, ``Interim Report on Afghan National 
Army Petroleum, Oil and Lubricants.''
    This report provided the Secretary of Defense with an 
update of an audit concerning the Afghan National Army's 
logistics capability for petroleum, oil and lubricants, also 
known as POL. POL are the most valuable commodities in the 
Afghan society. Combined Security Transition Command-
Afghanistan, led by the United States military, is responsible 
for training and equipping the Afghan National Army.
    This effort is funded by the U.S. taxpayer through the 
Afghan Security Force Fund, ASFF. From fiscal years 2007 to 
2012, CSTC-A has provided approximately $1.1 billion in ASSF 
funding to purchase petroleum, oil or lubricants for the Afghan 
National Army. In fiscal year, 2013, the U.S. Government will 
purchase roughly $343 million more in POL. CSTC-A provides 
these commodities based on what it believes the Afghan National 
Army will need.
    In February of this year, SIGAR began conducting this audit 
program. SIGAR is Special Inspector General for Afghanistan 
Reconstruction. Its overall objective was to assess U.S efforts 
to develop ANA's capability to acquire, distribute and account 
for POL supplies to its forces. SIGAR's findings are extremely 
troubling.
    According to the interim report, CSTC-A does not have 
accurate or supportable information on how much of the U.S. 
funds are needed for ANA fuel, where and how the fuel is 
actually used and how much fuel has been lost or stolen, some 
of the basic metrics we would need in order to understand the 
situation. Thus, the extent to which ANA fuel is stocked, 
consumed or lost at any given time remains unknown.
    SIGAR also found that ``no single office within the U.S. or 
Afghan Government has complete records on ANA fuel purchased, 
ordered, delivered or consumed.'' In fact, no records for fuel 
purchases exist prior to March 2011 because ``ANA fuel 
financial records totaling nearly $475 million from fiscal year 
2007 to February 2011 had been shredded in violation of 
Department of Defense and Department of Army policies.'' This 
is totally unacceptable and fits a pattern of behavior from the 
Defense Department.
    As a subcommittee, we are also concerned with the pattern 
of abuse of documents and the lack of documents coming out of 
the Pentagon in general. For instance, on January 2, 2011, 
Colonel Amrein sent an email to Colonels Carozza and Andersen 
regarding a tasker to send information to the IG on Afghan 
General Yaftali's suspected pilfering of Dawood Hospital 
supplies.
    In that email, Colonel Amrein stated that ``Brigadier 
General Patton reviewed the summary and documentary evidence we 
intended to provide. He made changes and told us to reduce 
documentary evidence that we provide.''
    In the NATO Training Mission Afghanistan photo policy on 
September 12, 2011, a policy was issued instructing people to 
destroy documents they had regarding the abuses of what was 
happening at the National Military Hospital known as Dawood.
    We had Colonel Geller's memorandum for the record that was 
requested. He submitted a 25 page memorandum for the record. 
Instead of providing that document to the committee, the 
Department of Defense created a separate chart editing out some 
key parts before it presented it to the United States Congress. 
Colonel Geller was also prevented from speaking to the media.
    The committee is also looking at the Palantir System where 
the Department of Defense--and it is just stunning here--
destroyed and replaced an independent assessment of an 
intelligence assessment tool, also known as Palantir, used and 
preferred by many soldiers in the field. We will continue to 
investigate that. That will probably constitute its own hearing 
in the future.
    Nevertheless, we have a pattern here. This is not just one 
sole instance. In this particular situation where we have the 
Inspector General trying to do an audit or a situation where 
they want to spend more money by the hundreds of millions of 
dollars and to find those documents had been shredded or lost 
and there is no accountability. I recognize that in the fog of 
war there are difficult situations, but this is totally 
unacceptable.
    Despite the lack of records and justification for fuel 
purchases, the Department of Defense proposes to increase 
funding. From fiscal year 2014 to fiscal year 2018, it plans to 
provide $555 million worth of POL per year. Instead of 
purchasing it for the Afghan National Army, this Administration 
plans to give two-thirds of that amount in cash directly to the 
Afghan Government. They might as well wire it directly to 
Dubai. This is an absolute atrocity that this government is 
going to take American taxpayer dollars and just wire it 
directly to the Afghan Government.
    We can't even control the money. We don't even know how 
much we are spending and what is going on. And now this 
government wants to send it directly to the Afghan Government? 
Again, send it to Dubai and don't even bother.
    In the name of capacity building, the Afghans will be 
allowed to purchase POL for themselves. With that, the Afghan 
Government will be responsible for overseeing the expenditure 
of roughly $2.8 billion of our taxpayer dollars, this to a 
government that I believe is perhaps the most corrupt 
government on the face of the planet.
    This begs one simple question. If the United States 
Government cannot track and verify these expenditures, then can 
we honestly expect the Afghan Government to do better?
    Yesterday, this subcommittee held a hearing to examine the 
mismanagement, theft and human suffering at the Dawood National 
Military Hospital in Afghanistan. For years, the Afghan 
officials pilfered nearly $175 million worth of cash and 
medical supplies. Legitimate pharmaceuticals were replaced with 
counterfeits, wounded Afghan soldiers were made to suffer and 
in some cases, died without proper medical care. This was a 
U.S. taxpayer funded program operated by the Afghan Government. 
This Administration must rethink its so-called ``forward 
strategy.''
    I don't make this up. It is pretty stunning to me. This is 
not related to the campaign but if you look at the documents 
coming out of, for instance, USAID right now, it is USAID 
forward. I cannot believe that a forward thinking government, a 
forward planning government would do such things as ``to 
achieve capacity building objectives and using host country 
systems where it makes sense.''
    In other words, let's just send them the money directly and 
bypass the accountability. We need more oversight, not less 
oversight. We can't even control the money ourselves and we are 
going to wire by the hundreds of millions of dollars, money to 
the Afghan Government. That is part of the reason we are here 
today.
    We are here today to discuss mechanisms needed to ensure 
accountability and to start looking for answers such as who 
ordered the destruction of these documents and how we can 
improve the internal controls. Without improvements, the ANA, 
POL funds will be even more vulnerable to theft and waste.
    I want to thank Mr. Sopko for being here on fairly short 
notice. They issued this report on Monday and we wanted to get 
on top of it as quickly as possible. We look forward to his 
testimony.
    I would like to now recognize the Ranking Member, the 
gentleman from Massachusetts, Mr. Tierney, for his opening 
statement.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Sopko for being here today and for your 
report.
    We have just marked the 11th anniversary of September 11. 
During nearly all that time, United States soldiers have been 
on the ground in Afghanistan. We entered the conflict for what 
was believed to be righteous reasons and our brave men and 
women in uniform have largely accomplished the mission of 
ridding Afghanistan of Al Qaeda and the international 
terrorists who threatened our homeland.
    I would like to take the opportunity to honor their 
sacrifices and state that I am amongst many who are proud of 
their service.
    This subcommittee has long been concerned with the issues 
of corruption and mismanagement of United States taxpayer 
dollars in Afghanistan for the obvious reason of the impact it 
has on the safety and security of our military forces and 
civilians in-theater but also with respect to the United States 
taxpayer dollars.
    Under my chairmanship, this subcommittee conducted multiple 
investigations into allegations of corruption in the United 
States contract related to the war in Afghanistan. In a bi-
partisan manner, we investigated jet fuel contracts in 
Kurdistan and a host nation trucking contract in Afghanistan. 
Our investigation of the trucking contract found the 
contractors were making protection payments to our enemies with 
U.S. taxpayer dollars.
    I commend Chairman Chaffetz for calling this hearing today 
to examine the problem of contracting corruption continuing in 
Afghanistan. The Special Inspector General for Afghanistan 
Reconstruction conducted an audit of the Afghan National Army's 
logistics capability for petroleum, oil and lubricants. While 
conducting this audit, it was found an astounding lack of 
internal controls of records of fuel purchases, deliveries and 
consumption existed.
    SIGAR found that the Department of Defense's Training 
Mission lacked a valid method for estimating fuel needs on 
which to base the funding requests as well as lacked complete 
records on the Afghan National Army's fuel transactions. 
Ultimately, this means the fuel and the funds used to purchase 
it are highly vulnerable to theft and waste.
    Against this background, it is highly worrisome that the 
training mission intends to transfer to the Afghan Government 
direct control of the logistics and U.S. taxpayer funds for 
fuel on January 1, 2013. I believe that before this transfer 
takes place, NATO and the Department of Defense must work 
together to immediately establish clear guidelines to ensure 
this money is not misused. It is imperative that these 
egregious issues be fixed before hundreds of millions of 
dollars go directly into the hands of the Afghan Government.
    When the Chairman speaks of the quote that he was reading 
about money not going to the locals where it makes sense, from 
what I can see, it clearly does not make sense, at least 
certainly not at this period of time. We have to be careful and 
make sure that not unless and until it makes sense should that 
transfer take place.
    I appreciate Mr. Sopko's testimony and the leadership he 
brings to SIGAR. I look forward to the discussion today and I 
thank you, Mr. Chairman, once again.
    Mr. Chaffetz. Thank you. I thank the gentleman for truly 
approaching this in a bipartisan way. We want what is right for 
the country. This is not a partisan issue and I think you will 
see us very united on this issue. I do appreciate that.
    Does any other member have an opening statement? The 
gentleman from Massachusetts.
    Mr. Lynch. Thank you, Mr. Chairman and the Ranking Member. 
I appreciate your holding this hearing.
    I want to thank you for focusing your attention on this. I 
realize this is about the fifth hearing that this subcommittee 
has had on oversight in Afghanistan funding. This committee, 
along with the full committee, has worked tirelessly to ensure 
oversight and accountability of U.S. taxpayer dollars being 
spent in Afghanistan. While it is a task we wish was not 
needed, the reality is that corruption in Afghanistan is 
rampant and endemic.
    The subject of today's hearing demonstrates that there is 
still much more work to be done. Based on the Special Inspector 
General's interim report, the Combined Security Transition 
Command-Afghanistan is not yet in a position to ensure that the 
Afghan National Army will be able to take over future 
procurement of petroleum, oil and lubricants, POL.
    The report's findings are very disturbing. As the Chairman 
noted and the Ranking Member noted, nearly $475 million in fuel 
payments with no records, no documents, documents that have 
been shredded and a lack of accurate methodology for estimating 
ANA fuel requirements has been uncovered by the Special 
Inspector General. I agree with the Special Inspector General 
that the deficiencies must be addressed quickly and correctly, 
especially as the ANA is slated to take charge of these 
purchases in 2013.
    As the Coalition continues to transfer responsibility for 
security and operations to the Afghans, we must be certain that 
procedures and institutions are in place to ensure that U.S. 
taxpayer money is not expended where Afghan resources are 
available, number one, and if and when U.S. resources are 
necessary, to make sure that those resources are expended 
properly.
    I would like to thank Inspector General Sopko for your 
efforts to bring accountability to the continuing mission in 
Afghanistan and for taking the time to come and testify before 
this committee. I look forward to hearing your testimony on 
this matter and other investigations your office is conducting.
    I want to reinforce a couple points the Chairman and 
Ranking Member have amplified. That is that nothing in our 
experience thus far in Afghanistan would lead us to believe 
that direct funding--just sending a check, sending resources 
directly to Afghan ministries--is in the best interest of the 
United States or the American taxpayer.
    Secondly, it is a case of no good deed goes unpunished. We 
are trying to help the Afghan people. Meanwhile, there are 
agents within their government that are robbing us blind. I 
just think we have to reassess--I realize the President some 
time ago set a timetable for the end of 2014 for withdrawal but 
I think in light of the continuing circumstances of corruption, 
the delay in the training exercises that are ongoing there, I 
think it is right and proper for us to reassess that timetable.
    Actually, I believe that if our mission is for training the 
Afghan National Army and getting these systems in place, we 
don't need a massive military presence to accomplish that. I 
think it is entirely right and appropriate that we reassess and 
look at the possibility of getting out at the end of 2013 
instead of 2014.
    With the green on blue so-called attacks that we are seeing 
where ANA personnel are attacking their NATO, largely U.S. 
trainers, I think there is every reason for us to reassess our 
timetable and look to the opportunity to get out of Afghanistan 
sooner. They are either going to take charge of this operation 
and run their country with the highest hopes for democratic 
ideals or they are not.
    This ball is in their court and they have to step up. I 
don't see them stepping up and I don't think us staying one 
more year and losing more American lives is going to change 
their level of commitment. Indeed, I think if we emphasize that 
we are not staying around, it might act as a stronger incentive 
for them to step up and do the right thing.
    Mr. Chairman and Ranking Member, I appreciate your courtesy 
and indulgence. I yield back the balance of my time.
    Mr. Chaffetz. Thank you.
    Members will have seven days to submit opening statements 
for the record.
    I will now recognize our panel.
    Mr. John F. Sopko is the Special Inspector General for 
Afghan Reconstruction. He was appointed by President Obama and 
was confirmed July 2, 2012. He spent more than 20 years on 
Capitol Hill, including as Chief Counsel for Oversight 
Investigations for the House Committee on Energy and Commerce, 
chaired by Representative John Dingell.
    He has a distinguished career and I appreciate your taking 
on this most difficult assignment. I know you are supported by 
a staff that is patriotic and committed to the betterment of 
this country. It is a difficult situation to say the least but 
we appreciate you and your staff and those that have joined you 
here today and those back at the office and certainly in 
Afghanistan for the great work that the do. I appreciate you 
being here.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witness responds in the affirmative.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witness answered in the 
affirmative.
    Mr. Sopko, we would like to turn over some time to you for 
an opening statement which will be followed by questions from 
members on the panel.
    Thank you.

    STATEMENT OF JOHN F. SOPKO, SPECIAL INSPECTOR GENERAL, 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Mr. Chairman Chaffetz, 
Ranking Member Tierney and the other members of the 
subcommittee.
    I am pleased to be here today to discuss U.S. efforts to 
help the Afghan National Army procure, deliver and account for 
fuel, which includes petroleum, oil and lubricants provided to 
its forces.
    For fiscal years 2007 to 2012, U.S. funding for Afghan Army 
fuel totaled almost $1.1 billion. Because fuel is a valuable 
commodity that is vulnerable to theft and because helping the 
Afghan Army develop a supportable and sustainable logistics 
capability is an essential part of transferring security 
responsibilities to the Afghan Army, SIGAR initiated an audit 
of efforts by the Combined Security Transition Command-
Afghanistan, commonly referred to as CSTC-A, to develop the 
Afghan Army's capability to supply fuel to its forces.
    Based on our ongoing audit work, we have serious concerns 
about this program and CSTC-A's method for estimating fuel 
needs on which to base funding requests. We are also concerned 
that CSTC-A has incomplete records of fuel purchased for, 
delivered to and consumed by the Afghan Army.
    In fact, CSTC-A was unable to provide us records on nearly 
$475 million in fuel payments because, according to CSTC-A 
officials, those records had been shredded. Let me explain a 
bit about how the fuel ordering and delivery process is 
generally designed to work, as shown in this first chart with 
fuel procurement and distribution. I believe you do have an 
electronic record of that chart.
    In that chart, you will see that Afghan Army units at the 
bottom are supposed to submit a fuel request to the fuel depot 
which is Request No. 14 that we discuss in my longer statement. 
The depot is supposed to fill that order and when needed, 
request fuel through the Afghan Logistics Command to maintain 
its supply. The Afghan Logistics Command approves the depot's 
request and is supposed to submit it to CSTC-A. CSTC-A is then 
supposed to review the order and submit it to one of four fuel 
contractors to deliver to the designated Afghan Army location.
    Once the fuel is delivered, the Afghan Army unit completes 
a receiving report showing the amount and quality of fuel 
received and submit that form to both the Logistics Command and 
CSTC-A. CSTC-A then will use this form along with the original 
fuel order, delivery ticket and other supporting records 
provided by the fuel delivery contractor to approve payment. 
That is what is supposed to happen.
    CSTC-A's ability to accurately protect itself from fraud 
and theft, as well as develop Afghan fuel logistics capability, 
depends on the effective implementation of these required 
processes to validate the accuracy of data related to fuel 
orders, receipts, payments and ultimately, overall Afghan Army 
fuel requirements.
    Unfortunately, SIGAR's auditors have found that the process 
I just described is seriously broken. CSTC-A does not know the 
actual fuel funding levels needed to meet Afghan Army mission 
requirements.
    As you can see in the second chart, CSTC-A's current method 
for estimating the amount of fuel the Afghan Army needs does 
not include basic information that any household here in the 
United States or a small business would want such as, how many 
vehicles are there that require fuel. That would be an obvious 
question to ask. How many generators are there that require 
fuel? How much fuel does each generator require? How many 
Afghan Army fuel storage locations are there? How much fuel can 
be stored at each location and ultimately, how much fuel has 
been consumed at each of the Afghan Army locations?
    We are also concerned that our audit found that there is no 
single office in the United States Army, Defense Department or 
the Afghan Ministry of Defense that has complete records on 
Army fuel ordered, purchased, delivered or consumed. Moreover, 
as mentioned by the Chairman in his opening, we found that 
CSTC-A did not have any records of fuel purchased and payment 
information prior to March 2011 because they had been 
mysteriously shredded.
    For the time period that they claim they had records, which 
is March 2011 to March 2012, CSTC-A could not provide more than 
half of the documents we requested and CSTC-A continued to pay 
vendors without independent verification of the quantity and 
quality of fuel delivered. As a matter of fact, we only 
received four complete sets of documents when we requested all 
the material from CSTC-A.
    These problems must be resolved quickly because CSTC-A 
plans to begin transferring responsibility for the procurement, 
tracking, delivery and accounting of fuel to the Afghan 
Government beginning January 2013, less than four months from 
now. At that time, CSTC-A intends to begin paying for the 
Afghan Army's fuel through direct contributions to the Afghan 
Government. In addition, CSTC-A has proposed to increase annual 
funding for Afghan fuel for fiscal years 2014 to 2018 by $212 
million per year. We believe there is no basis for that 
increase.
    To address the serious problems we identified, we issued 
this interim audit report and made two recommendations to the 
Commanding General of CSTC-A. First, reduce the fiscal 2013 and 
planned 2014 budget requests for fuel from the fiscal 2012 
amount of $306 million and maintain that level until a better 
process for determining requirements is developed and secondly, 
to develop, approve and implement a comprehensive action plan 
to improve fuel accountability.
    I also took the following steps. I first alerted the senior 
leadership at DOD and the commanders in the field about the 
destruction of documents and emphasized the importance of 
maintaining all financial records which are required by law. 
Second, I referred this matter to my investigative directorate 
which is conducting an inquiry right now to determine who 
destroyed the documents and for what reason. Thirdly, I just 
launched a new audit to assess CSTC-A's efforts to develop the 
ability of the Afghan National Police to procure, deliver and 
account for fuel for its forces.
    Although CSTC-A agreed with our second recommendation that 
it needs to improve its process, it disagreed with our first 
recommendation and still intends to increase fuel funding for 
the Afghan Army and make direct contributions to the Afghan 
Ministry of Defense starting in January 2013.
    We continue to believe this is a mistake. It would be 
imprudent for CSTC-A to increase estimated fuel requirements 
and to proceed with writing a blank check to the Afghan 
Government without first ensuring it is obtaining and using 
basic information such as actual fuel consumption and usage 
data. To do so would be doubling down on a very, very risky 
bet.
    In summary, no single commodity is as important to the 
reconstruction effort in Afghanistan as fuel. No commodity is 
at such risk of being stolen or wasted as fuel. In Afghanistan, 
fuel is like gold. As the United States withdraws and transfers 
security responsibility to Afghan forces, U.S.-funded fuel will 
become even more vulnerable to waste, fraud and abuse through 
corruption and theft.
    It is imperative that U.S. military and civilian 
authorities improve their efforts to protect the U.S. 
taxpayers' continuing investment and to ensure that the Afghan 
Army is capable of assuming their responsibilities in the 
future.
    I want to thank the Chairman and Ranking Member for holding 
this hearing and giving us the opportunity to discuss these 
findings. We believe they warrant immediate attention.
    Thank you and I am happy to answer any questions you may 
have.
    [Prepared statement of Mr. Sopko follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Chaffetz. Thank you.
    I will now recognize myself for five minutes.
    The best estimate is that the documents were shredded 
sometime between October 2010 and March 2011. Do I have that 
right?
    Mr. Sopko. What we know is that when we first found out, a 
fuel ordering officer advised us that some former fuel ordering 
officers had destroyed the records. The time period would be 
October 2006 to March 2011.
    Mr. Chaffetz. The Commanding General of CSTC-A between 
November 2009 and November 2011 was I believe Lt. General 
Caldwell, correct?
    Mr. Sopko. I believe you are correct, sir.
    Mr. Chaffetz. This is a pattern of destruction of documents 
under his command that I find personally to be of deep concern 
and something we should continue to look at.
    There certainly had to be some sort of electronic records. 
In this day and age, in the years of the 2000's there had to be 
some sort of electronic record, was there not?
    Mr. Sopko. Mr. Chairman, as I mentioned, we learned about 
this in April 12 and I believe the auditors kept looking for 
these records. We assumed there had to be some record saved in 
electronic format. It wasn't until I believe late June or July 
that finally CSTC-A told us that if you haven't gotten it, you 
are not going to get it. We couldn't find any electronic 
records.
    There may be electronic records of the actual payment. We 
know how much we paid but that doesn't tell us anything else. 
That just tells us how much we may have lost.
    Mr. Chaffetz. Tell me about debarment. Certainly there are 
some bad actors in this category of fuel consumption. Has 
anybody been debarred? How is that process working?
    Mr. Sopko. We have a very aggressive--without sounding like 
I am tooting my horn--I think one of the more aggressive 
suspension and debarment programs, particularly in that field. 
The area in Afghanistan, of course, is where we are looking. We 
have referred 242 companies and individuals for suspension and 
debarment.
    Unfortunately, a number of the companies and individuals 
that we have identified as subject to debarment and suspension 
have not been suspended and debarred by the Army. Despite the 
fact that we have provided thousands of pages of analysis, 
witness statements and submitted documents as part of multiple 
debarment proceedings of fuel contractors, we are basically 
forced to prove a negative.
    By that, I mean, Mr. Chairman, we have signed affidavits, 
we have statements from U.S. officers and employees who are 
saying that the records with their signatures are false, that 
they did not sign those documents, but the Army is saying, 
unless you prove the fuel didn't actually go to the military 
base to the Afghans, we are not going to suspend and debar.
    Mr. Chaffetz. Are any of these suspected terrorists or 
known terrorists?
    Mr. Sopko. Mr. Chairman, that is a very good question. We 
have identified 42 companies and individuals who have been 
listed by either the Department of Commerce on their entities 
list, which is published in the Code of Federal Regulations, 
and at least eight of those who have been publicly listed 
pursuant to Section 841 of the National Defense Authorization 
Act which deals with contracting with the enemy, those 
individuals have been publicly identified, we have brought 
their names and the names of those companies to the Army and 
they haven't been debarred.
    We view this as ridiculous. They should be debarred 
immediately. They are listed by the United States Government as 
terrorists but at the same time, they are able to contract with 
the United States Government right now in Afghanistan.
    Mr. Chaffetz. So of these hundreds of people and entities 
that you have identified as qualified for debarment, do you 
have any idea what percentage have actually been accomplished? 
Why is the Army not doing this? What is their justification for 
that?
    Mr. Sopko. Well, they just line us up in the queue with 
everyone else. In the queue now for the Army, it takes about a 
year.
    Mr. Chaffetz. Do they have some intern sitting in some 
cubicle somewhere that doesn't have enough time to get this 
done or what is the problem?
    Mr. Sopko. My concern, Mr. Chairman, is that they don't 
appreciate I think what you appreciate and what I do that time 
is of the essence. If we are going to make a difference and 
stop bad people from contracting with the U.S. Government, from 
stopping terrorists from contracting with the U.S. Government, 
now is the time, not two years or three years from now.
    I have told my staff since I started, the next two years, 
if we are going to make a difference for the U.S. Government, 
for the U.S. taxpayer, we have to redouble our efforts. I am 
not absolutely certain that everyone has that message. It is 
business as usual in a lot of government agencies.
    I know there are people such as General Allen, General 
Longo and the people in Task Force 2010 out in the field who 
realize now is the time, time is of the essence. I am not 
commenting on them but I think there are too many people here 
in Washington who think this is business as usual. It is not 
business as usual. We are in a war and if we are going to do 
something, we have to do it now.
    Mr. Chaffetz. Thank you. My time has expired but given that 
we have been there for more than ten years and we haven't 
gotten this part right yet, with all due respect to General 
Allen and the great patriot that he is, if they didn't take 
this seriously and can't get these people on a list, and it 
takes years to get it done, it is just an atrocity. I 
appreciate you highlighting it.
    There is someone here who has done a lot of work on this 
particular topic and has been a champion in trying to get this 
thing fixed. I appreciate his part in this. Now, I recognize 
the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Sopko.
    This is outrageous to say the least, but it is not new to 
us. When we looked into the contract, the oil coming through 
Kyrgyzstan one of the things we found out was that the 
Department of Defense didn't even really know who they were 
contracting with. They had a corporation but didn't know the 
principals, they didn't know the stockholders, didn't know the 
directors and I am afraid we are looking at more of that here.
    Let me first deal with the shredding issue. We need 
resolution of that. You already have an investigation that is 
going on. You said 2009 through 2011, General Caldwell was in 
charge. Who was in charge from 2007 to 2009?
    Mr. Sopko. I don't have the name of the general at that 
time. I can check. Let me see if my staff has it. We can get 
back to you with that information.
    Mr. Tierney. The question is, was this an ongoing 
destruction of documents during that 2007 to 2011 period or did 
it all happen at one time?
    Mr. Sopko. That is what we are trying to determine. We are 
also trying to determine who did it and was it ordered.
    Mr. Tierney. Was it policy or was it a personal decision? 
That is what we need to know.
    Mr. Sopko. We don't know that yet.
    Mr. Tierney. Those are things we have to find out.
    Mr. Sopko. Absolutely.
    Mr. Tierney. Who destroyed it, was it done as a matter of 
policy or some personal decision? What is the status of the 
investigation, is it just beginning?
    Mr. Sopko. It is just beginning, sir.
    Mr. Tierney. The second thing is I think we are all 
hesitant to start turning over millions and millions of dollars 
to the Afghan National Army if they don't have a process of 
accountability. The Chairman and I are going to talk about what 
we do between now and the end of next week to stop something 
going in January.
    I agree with you, why are we giving them extra money if 
they can't justify the need for it? What I am hearing from you 
is they have not shown us any justification for that 
substantial increase, is that correct?
    Mr. Sopko. That is correct.
    Mr. Tierney. So it is some $212 million per year they want 
to give additionally without any documentation or 
substantiation?
    Mr. Sopko. That is correct. I would say, Mr. Tierney, it is 
basically garbage in and garbage out. It is not based on 
anything credible. The current numbers--and we are even giving 
them that current number of $306 million because they don't 
know how much is being used but definitely not going to the out 
years and increasing it.
    Mr. Tierney. So $306 million hasn't been justified either?
    Mr. Sopko. That is correct, sir, because they are basing it 
on order data, what they order as the basis for usage. They 
don't have consumption data. It is basically like your teenager 
goes out and uses the car and says I need $60 to fill up the 
gas tank and I need another $100, $200 and nobody checks the 
gas tank.
    Mr. Tierney. We have seen this before. We have to act 
between now and January on that. The preconditions should be 
exactly what before we start releasing money to the ANA to 
distribute? We should have some system in place and you 
outlined the system over here but should we not have some 
period of time in which they are actually performing to that 
system before we feel comfortable that they have the capacity, 
independent of the United States, to actually carry out the 
system and implement it properly and also need records to show 
the actual numbers before we give them the $306 million?
    Mr. Sopko. That is correct, Congressman. The thing you have 
to realize is CSTC-A is a U.S. and NATO organization. We are 
finding is, not only aren't the Afghans living up to their own 
rules and procedures, but CSTC-A isn't. How can we hold the 
Afghans, and assume the Afghans can do it, if CSTC-A doesn't 
even do it?
    Mr. Tierney. We had problems with CSTC-A with regard to the 
training of the Afghan National Army and whether or not they 
were doing the job that should have been done there. We had 
issues with them with respect to the tracking of weapons. We 
had weapons coming into the airport and no tracking between 
getting unloaded from the plane getting to the warehouse, no 
tracking between the warehouse and getting the trucks that were 
delivering, no record of the trucks delivering to the final 
point of return and weapons were showing up in all sorts of 
places. CSTC-A, unfortunately, has a longstanding issue of 
accountability.
    I guess my question to you is what is reasonable to expect 
can be done between now and January 2013 or is just a fool's 
errand that we ought not start delivering directly at all and 
find some other system until we can get enough of a record and 
enough proof of their capacity to perform?
    Mr. Sopko. I am not certain that CSTC-A can remedy the 
problems in this short a time frame. They are making some 
attempts, but as we say in the audit, they still are not basing 
and grounding this on common sense. You have to have the 
records, you have to check what consumption is, and you have to 
check that the fuel is going to where it is being ordered. This 
is just reason and common sense. I am not absolutely certain 
they can do it.
    Mr. Tierney. As you read it, the directive to do all this 
by January 2013 is just something the Army has set as a date or 
is it some regulation that is, in fact, in place?
    Mr. Sopko. It is our understanding, and I will check with 
my staff who are probably more knowledgeable about this, but it 
is our understanding that is the stated policy and it will 
occur, not just for CSTC-A, not just for petroleum, oil and 
fuel, it is going to be with a number of programs.
    Mr. Tierney. The Department of Defense policy, you are 
saying?
    Mr. Sopko. That is my understanding. It is DOD planning 
policy.
    Mr. Tierney. Thank you very much.
    Mr. Chairman, thank you. You have been liberal with the 
time.
    Mr. Chaffetz. The gentleman yields back.
    I now recognize the gentleman from Massachusetts, Mr. 
Lynch, for five minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Mr. Sopko, I want to thank you for your work on this. Can I 
ask you, in terms of what we are paying for fuel in Afghanistan 
through the vendor process, what are we paying a gallon for 
gas?
    Mr. Sopko. I believe we are paying $4 per gallon, but 
again, I will double check--approximately $4 per gallon.
    Mr. Lynch. Supposedly at the pump, right at the point of 
purchase?
    Mr. Sopko. Yes.
    Mr. Lynch. I understand the challenges that CSTC-A has. 
From our previous trips and we have all made numerous trips to 
Afghanistan, the recruits that we are getting in training, 
candidates for training, are largely illiterate, they don't 
know how to count so we are actually going through a program 
now where we put these trainees and put them through a program 
that takes them through a third grade level U.S.
    What troubles me greatly is that the people who are 
supposed to be teaching the Afghans, as you pointed out, CSTC-
A, the proper methodology for accounting for the fuel, paying 
for it and running the system, CSTC-A is not using the system 
that we should be trying to teach these trainees, these 
candidates, these people running the operation who are supposed 
to be running it themselves beginning in 2013. There is a real 
gap in our mission.
    As I understand, most of the prior accounting is just a 
paper process. Is there any ability adopt to our own system or 
through DCAA, the Defense Contracting Auditing Agency, a system 
that might be able to put in place before January?
    Mr. Sopko. I don't believe so, sir. It is a paper process. 
I have seen the tickets. They are just like your old tickets. I 
remember working in the steel mills when I was a kid and there 
were these little tickets when you bought something and there 
would be four or five copies. You pull one off, you give it to 
the driver; the driver takes it, he pulls another off and fills 
it in.
    I think to institute in three months an electronic process 
would be extremely difficult. As you alluded, the problem is we 
should be leading by example and CSTC-A isn't following their 
own rules. They are allowing the purchases to go directly to 
CSTC-A. They are supposed to go through that process. There are 
supposed to be forms. There should be a package together before 
CSTC-A makes the payment but they are not.
    Mr. Lynch. We had similar problems with the banking system. 
It got so bad because of the theft largely by folks related to 
Hamid Karzai and related to the first Vice President, and they 
basically robbed Kabul Bank. It came to a point where we had to 
redirect our payments to vendors away from the Afghan banks so 
that they wouldn't be stealing our money. This is a lot of the 
same problem.
    Yesterday at the hearing, I said corruption to Afghanistan 
is like wet is to water. We have some serious problems here and 
we can't let this continue. We can't let this go forward in 
January. We can't just send them a check because we know they 
are going to steal it, we know they are overcharging us. I was 
reading in this report that they are even ordering fuel for 
trailers that don't have engines, that don't use fuel. They are 
basing their fuel consumption on trailers that don't use fuel. 
That troubles me greatly.
    Again, we are trying to do the right thing. The American 
people have been very supportive of this operation. I think 
they are rightfully running out of patience. I am just trying 
to figure a way to minimize our losses and bring some 
accountability to this process. It does boggle the mind that we 
have been there 10 years, 10 years, and we don't have a system 
in place to verify how much fuel they are using and whether or 
not they are using the resources we are giving them for that 
purpose.
    It is disgraceful. We cannot afford this. We never could 
afford this but we certainly cannot afford it now. I think at 
some point, we are going to have to get over there and look 
into this more deeply, part of the committee, over in 
Afghanistan.
    How many auditors do you have on the ground through your 
operation?
    Mr. Sopko. We have 49 positions totally and that includes 
criminal investigators and auditors and we have approximately 
25. Since I came onboard, I have asked for approval from the 
State Department to increase the number by 8. You know, since 
you have been there, there is limited space but we feel if we 
are going to make a difference, we have to emphasize the next 
two years, so we are going to increase the total number to 
about 57 or 58 people.
    Mr. Lynch. My last question, in closing, we have the 
vehicle requirements but don't we have some power plants that 
are consuming large amounts of fuel? It would seem with a fixed 
facility as opposed to vehicles moving around and you can't 
really track consumption on that end as well as you can with a 
fixed facility, can we at least put people in place at these 
power plants so that we can audit their fuel consumption?
    Mr. Sopko. We do have some people in place, the auditors 
found, but the problem again is we are not collecting the data.
    Mr. Lynch. It should be possible because 92 percent of the 
country has no electricity. Basically, it is 8 percent of the 
population right in and around Kabul that has electricity for 
some part of the day. We should be able to go in there and 
audit those limited facilities that are actually producing 
electricity.
    Mr. Sopko. These facilities that are producing electricity 
are basically producing electricity for a military base. They 
are large diesel power generators.
    I wanted to clarify one thing. When you made reference to 
the trailers, that came up not so much in the ordering issue 
but when we asked CSTC-A to justify their budget. They gave us 
information and when we looked behind the information they gave 
us, they were counting trailers and other equipment that had no 
engines to justify it.
    We said that doesn't fly. It was more in that context. We 
have not confirmed actual fuel going to non-working engines, 
but we don't know where the fuel goes. All we really know is 
what we pay the vendor.
    Mr. Lynch. I have exceeded my time. I appreciate your 
indulgence, Mr. Chairman. I yield back.
    Mr. Chaffetz. The gentleman yields back.
    I recognize myself for five minutes.
    You mentioned in your report that the U.S. military is 
spending $20 million for firewood. Is there any justification 
for $20 million in Afghan firewood?
    Mr. Sopko. Mr. Chairman, that was one of the more 
interesting comments my auditor told me. You are absolutely 
correct, CSTC-A's paying approximately $20 million a year for 
firewood. When my auditors asked for documentation of what we 
spent on firewood, basically, we were told ``we don't have the 
records; we just spend the money.'' That is the CSTC-A 
attitude.
    That is a lot of firewood. Somebody joked that is like 
buying every stick of lumber in Maine. Again, it is an 
attitude, we just pay, and that is what is shocking.
    Mr. Chaffetz. Obviously there is some bribery going on 
here. We would be naive to think there wasn't. Do you have any 
sense of how that happens, what the going rate is? How much are 
these people being paid off?
    Mr. Sopko. Again, it is difficult for us to do criminal 
investigations in this arena because there are no records. It 
is going to be even more difficult if we just cut a blank 
check. In other programs that we have looked at, in programs 
related to some of the post nation trucking cases that I 
referred to that Mr. Tierney and you investigated before, we 
have records, we have done criminal investigations. We actually 
have 25 fuel-related investigations currently underway which 
has resulted in a number of indictments.
    The going rate we are seeing is about $5,000 per truck to 
make trucks disappear. We have one case in which approximately 
200-some trucks just disappeared. By that, I mean somebody made 
up the records--there are actually paper records--just made 
them up, they were paid $5,000, so it is about $1,000 a gallon. 
The trucks went out the door never to be seen again.
    That is over 1,000,000 gallons in fuel and nobody noticed 
it until we opened the criminal investigation. I must say we 
have very strong support from the military in this matter. They 
have been very helpful and we have been working jointly with 
them and Task Force 2010 on these types of cases but those were 
cases where we actually have records. We don't have records 
over at CSTC-A.
    Mr. Chaffetz. Can't we just go down to OfficeMax and buy a 
few laptops, get a little software and be out the door by three 
o'clock? I have to tell you, I really appreciate after ten 
years and for CSTC-A, for the Pentagon to suggest that we 
should increase spending to $555 million per year and from 2014 
to 2018, $2.8 billion they want to increase the funding and 
send the bulk of this directly to the Afghan Government with 
less control, less oversight, less accountability, it is 
absolutely stunning, the total lack of regard for the resources 
and the money the American people are spending.
    Then to spend $20 million on firewood with no 
accountability, I really appreciate you bringing this to our 
attention. We, in Congress, have to step up and do something 
about this because this is totally unacceptable.
    I have no further questions but I would be happy to yield 
to the gentleman from Massachusetts?
    Mr. Tierney. I suspect that we are beating a dead horse at 
this stage. You have made a very compelling and clear case and 
I thank you for that.
    I guess we need to define what the role of the Afghan 
National Army is versus the role of CSTC-A's situation on that. 
Is the role of the contractors prominent in this documentation? 
They basically document the amount they pick up and the amount 
they deliver or where do they fit into this?
    Mr. Sopko. They are supposed to but since we don't have the 
records, we don't know. We have some records that we have seen 
and it again shows they picked up so much fuel. What made us 
suspicious--again, I am a former federal prosecutor and got my 
start looking at corrupt unions in Ohio where records 
disappeared all the time or were bogus records. I did banking 
investigations, but what you see here is sometimes these are 
pristine records. They are typed out. There is no spillage. 
Everything is perfect. That raises some concern and the fact 
that in most cases there are no records.
    Mr. Tierney. We don't know the amount that wasn't 
delivered, we don't know the amount that was delivered but in 
insufficient amounts and what left the depot and we don't know 
the grade or quality, whether it was doctored, altered, watered 
down or anything else? We are unable to indicate all that?
    Mr. Sopko. The key point is we don't know what was 
consumed, so how do we know what we should be buying?
    Mr. Tierney. The attitude of we don't have the records, we 
just spend the money, that permeates unfortunately too much of 
what is going on, not just in CSTC-A but I think in the whole 
operation over there and how we intend to protect our troops 
and get to an end result of this with the level of corruption 
where the people from Afghanistan can't even trust their own 
leadership on that or distinguish between what is happening to 
them at the hands of insurgents and other characters and their 
own government is not helping our operation at all.
    Thank you, Mr. Sopko. I suspect we may be talking to your 
office because I have started conversations with the Chairman 
about something maybe we could do between now and the end of 
this session to stop this from being implemented the way it 
looks like it is heading.
    Mr. Sopko. We are happy to work with you and the Chairman 
and any other members on this issue or other issues.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. The gentleman from Massachusetts, Mr. Lynch, 
is recognized.
    Mr. Lynch. Thank you, Mr. Chairman. Again, thank you, Mr. 
Sopko.
    Have you been invited to testify before Defense 
Appropriations?
    Mr. Sopko. No, sir. I have only been on the job since July 
1.
    Mr. Lynch. We might want to cycle you through Defense 
Appropriations. If they had the benefit of your counsel, I 
think that would be great.
    We know none of these records are being established. They 
are not being created or they are being shredded. What is the 
situation now with CSTC-A based on your contact with them? Have 
they changed their behavior at all? Is there a statement of 
future compliance? What are they doing?
    Mr. Sopko. They are starting, as you see in the report, 
their comments, to change. We don't feel it is going fast 
enough. We don't think it is focusing on the most critical 
records and those are usage records and we don't feel, based 
upon our last request for records, in which they could only 
provide 50 percent of the records, that everybody is following 
the rules and regulations.
    I should say they told us, don't worry, those records were 
shredded but now we are keeping records. We did a statistical 
sample and it came back that 50 percent of the records were 
gone and no explanation of what happened. We don't know if 
those were destroyed, lost or they didn't collect them.
    We may go back in again. We are going to be spending time 
looking at how CSTC-A is doing the same program for the police 
and we may be able to report back to you on that, but I am not 
optimistic.
    Mr. Lynch. Okay. We would like to work with you maybe even 
so far as to getting over to Afghanistan and doing a walk 
through with your folks just to drill down on this a little 
bit.
    Mr. Sopko. We would love to do that.
    Mr. Lynch. Thank you.
    I yield back.
    Mr. Chaffetz. Thank you.
    Are there other categories or other major expenditures that 
should also be on our radar? You mentioned the police, but if 
are there other big major ticket items, even smaller ticket 
items like firewood and others on your radar, I would 
appreciate knowing that or if there is something else you would 
care to share with us? Otherwise, we will conclude the hearing.
    Mr. Sopko. Mr. Chairman, I want to thank you again for 
giving me this opportunity to talk about this really important 
issue. Since coming onboard, as I said I just started July 1, I 
have emphasized after talking to a number of policy people, 
that we are going to have to increase our audits and increase 
our investigations, we are going to have to do them faster and 
be smarter because we have a limited amount of time because of 
the security situation in Afghanistan.
    Accordingly, we are coordinated with the other IGs and we 
are looking at a number of very serious issues. We are going to 
be looking at how security is impacting our programs by USAID 
and the Defense Department, how we are going to monitor 
contracts when there are going to be fewer American troops 
there is a big issue for us.
    We are also going to do a number of capping reports looking 
at broader issues dealing with corruption, counter narcotics 
activities as well as looking at the food services that CSTC-A 
provides to the Afghan National Security Forces.
    Since approximately 50 percent of the reconstruction money 
now is going to the Afghan National Security Forces, that 
obviously is going to be a key place where we will emphasize 
our resources but we are open to suggestions from other 
interested parties.
    The last thing I want to mention in regard to this is we 
discussed suspension and debarment. I don't want to leave the 
impression that the generals in the field have authority to 
suspend and debar. When I mentioned General Allen or General 
Longo, they would love to have the authority to suspend and 
debar, but they can't either.
    If they find suspicious characters, they have to send it to 
Army here in Washington for suspension and debarments. There is 
no accusation against the generals and the people in the field. 
They are actually with us are probably the best people to know 
the bad guys and who we should suspend and debar but they don't 
have that authority, nor do we, which is ironic because you 
have the National Endowment for the Arts has suspension and 
debarment authority but the commander in the field does not.
    The Institute of Museum and Library Services--I have a 
whole list--they all have suspension and debarment authority. 
The Railroad Retirement Board, the National Endowment for 
Humanities, the Legal Services Corporation, the National 
Archives, they all have suspension and debarment authority but 
General Allen doesn't, General Longo doesn't and we don't.
    I think it is something to consider particularly in a war. 
We are a temporary agency. We are disappearing at the end of 
this but a commander in the field should have authority to stop 
trading with the enemy and basically say, we are debarring you 
but he doesn't have that authority or she doesn't have that 
authority.
    I would ask you to consider that as you consider this very 
important issue on suspension and debarment.
    Mr. Chaffetz. Thank you. Now I have a second piece of 
legislation I will be introducing.
    Great work. We appreciate the service that so many of the 
men and women in your organization are doing. It is very 
difficult. We all appreciate this and appreciate the report.
    At this time, the committee will stand in adjournment.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
